<html>
<title> - WASTE AND INEFFICIENCY IN THE FEDERAL GOVERNMENT: GAO'S 2018 DUPLICATION REPORT</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]



 
     WASTE AND INEFFICIENCY IN THE FEDERAL GOVERNMENT: GAO'S 2018 
                           DUPLICATION REPORT

=======================================================================

                                HEARING

                               BEFORE THE

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 26, 2018

                               __________

                           Serial No. 115-81

                               __________

Printed for the use of the Committee on Oversight and Government Reform



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



         Available via the World Wide Web: http://www.fdsys.gov
                       http://oversight.house.gov
                       
                       
                            _________ 

                 U.S. GOVERNMENT PUBLISHING OFFICE
                   
 31-120 PDF                WASHINGTON : 2018                             
                   
                       
                       
                       
              Committee on Oversight and Government Reform

                  Trey Gowdy, South Carolina, Chairman
John J. Duncan, Jr., Tennessee       Elijah E. Cummings, Maryland, 
Darrell E. Issa, California              Ranking Minority Member
Jim Jordan, Ohio                     Carolyn B. Maloney, New York
Mark Sanford, South Carolina         Eleanor Holmes Norton, District of 
Justin Amash, Michigan                   Columbia
Paul A. Gosar, Arizona               Wm. Lacy Clay, Missouri
Scott DesJarlais, Tennessee          Stephen F. Lynch, Massachusetts
Virginia Foxx, North Carolina        Jim Cooper, Tennessee
Thomas Massie, Kentucky              Gerald E. Connolly, Virginia
Mark Meadows, North Carolina         Robin L. Kelly, Illinois
Ron DeSantis, Florida                Brenda L. Lawrence, Michigan
Dennis A. Ross, Florida              Bonnie Watson Coleman, New Jersey
Mark Walker, North Carolina          Raja Krishnamoorthi, Illinois
Rod Blum, Iowa                       Jamie Raskin, Maryland
Jody B. Hice, Georgia                Jimmy Gomez, Maryland
Steve Russell, Oklahoma              Peter Welch, Vermont
Glenn Grothman, Wisconsin            Matt Cartwright, Pennsylvania
Will Hurd, Texas                     Mark DeSaulnier, California
Gary J. Palmer, Alabama              Stacey E. Plaskett, Virgin Islands
James Comer, Kentucky                John P. Sarbanes, Maryland
Paul Mitchell, Michigan
Greg Gianforte, Montana

                     Sheria Clarke, Staff Director
                  Robert Borden, Deputy Staff Director
                    William McKenna, General Counsel
                    Richard Burkard, Senior Counsel
                         Kiley Bidelman, Clerk
                 David Rapallo, Minority Staff Director
                 
                 
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on April 26, 2018...................................     1

                                WITNESS

The Honorable Gene Dodaro, Comptroller General of the United 
  States, U.S. Government Accountability Office
    Oral Statement...............................................     5
    Written Statement............................................     6


     WASTE AND INEFFICIENCY IN THE FEDERAL GOVERNMENT: GAO'S 2018 
                           DUPLICATION REPORT

                              ----------                              


                        Thursday, April 26, 2018

                   House of Representatives
               Committee on Oversight and Government Reform
                                                     Washington, DC
    The committee met, pursuant to call, at 10:00 a.m., in Room 
2154, Rayburn House Office Building, Hon. Steve Russell 
presiding.
    Present: Representatives Russell, Duncan, Jordan, Sanford, 
Amash, Massie, Meadows, DeSantis, Ross, Walker, Blum, Grothman, 
Palmer, Comer, Mitchell, Norton, Maloney, Lynch, Cooper, 
Connolly, Kelly, Lawrence, Krishnamoorthi, Welch, and 
DeSaulnier.
    Mr. Russell. The Committee on Oversight and Government 
Operations will come to order.
    Without objection, the presiding member is authorized to 
declare a recess at any time.
    This morning the Government Accountability Office released 
its eighth annual report on opportunities for the Federal 
Government to reduce duplication, overlap, and fragmentation, 
and to achieve other financial benefits.
    Over the course of eight years, the GAO has highlighted 
more than 300 areas of such waste and inefficiency in the 
Federal Government and recommended nearly 800 corrective 
actions.
    I first want to thank you, Mr. Dodaro, as well as your 
entire staff, for the excellent work that they do. This report 
provides the opportunity to highlight duplication and 
inefficiency throughout the government. Many of the issues that 
we will discuss today will lay the groundwork for future 
hearings and legislative action.
    The Federal Government will save an estimated $125 billion 
by 2025 based on implementation of GAO recommendations to date. 
Through congressional action and actions by executive agencies, 
52 percent of GAO's recommended corrective actions have been 
fully addressed and closed, but that does leave 48.
    The GAO's annual report shows us persistent effort to 
address inefficiencies and resolve wasteful spending can 
collectively provide a significant benefit to the public. 
Fifty-two percent of actions addressed is a good start, but the 
other 48 percent need to be done.
    We could save billions more by taking action at just three 
agencies: the Department of Defense, the Internal Revenue 
Service, and the Department of Health and Human Services. 
Through GAO's annual reports, more than half of all corrective 
actions have been directed at these three agencies. Yet, all 
three have more than 40 percent of recommended actions still 
open.
    For example, GAO estimates the Department of Defense could 
save more than $9 billion by identifying opportunities for 
consolidating or reducing the size of headquarters 
organizations.
    GAO also found that the IRS could save billions in 
fraudulent refunds by improving efforts to prevent fraud 
associated with identity theft.
    GAO has recommended the Centers for Medicare and Medicaid 
Services take steps to improve the accuracy and diagnostic 
coding practices for Medicare Advantage payments, which could 
result in savings of billions of dollars.
    GAO does find in this year's report that the IRS has had 
some success in reducing millions of dollars of fraud by simply 
delaying the date for sending refunds while it verifies 
critical information. The committee would be interested in 
hearing more about this particular effort.
    The Federal Government has an obligation to taxpayers to 
avoid fragmentation and ensure effective program coordination 
across agencies. Disagreements over policy might lead to 
disagreements over appropriate spending, but wasting tax 
dollars because of a failure to coordinate is simply 
unacceptable.
    For example, GAO's newly released report shows that the 
Department of Agriculture has an entire seafood inspection 
program to ensure the safety of domestic and imported catfish, 
while the Food and Drug Administration is responsible for the 
safety of all other seafood. Having a separate inspection 
program for one species of fish is an example of inefficiency 
we hope is an outlier.
    But if we are going to have this type of fragmented seafood 
inspection system, we expect close coordination, at a minimum, 
between the two agencies involved. Unfortunately, the GAO has 
found the two agencies are not coordinating well; in fact, do 
not even have common standards for public safety of the fish 
they inspect.
    All Federal workers must embrace their role as fiduciaries 
for the American public. Everyone should consider it part of 
their job description to avoid waste and ensure tax dollars are 
being used effectively. GAO's annual report provides an 
important road map to tackling known waste and inefficiency. We 
know there is only so much GAO can do. It is up to agencies to 
take your recommendations to heart and to act on them, and it 
is up to us in Congress to act in many cases.
    But as we will hear, agencies need to take action more 
rapidly. In some cases, the solution to reducing overlap may be 
evident, but practical or political challenges may be an 
impediment. In other cases, an agency or Congress may lack 
basic information about whether a program is functioning as 
intended, and simply obtaining better data is a critical first 
step.
    We look forward to discussing why recommendations remain 
open for so long and what this committee can do to help the 
agencies gain greater efficiencies and avoid wasting tax 
dollars. I look forward to hearing from the Comptroller General 
today on ways to reduce wasteful spending where it has been 
identified, as well as areas where agencies can take steps to 
avoid spending and duplicative waste in the future.
    I now recognize the Ranking Member of the committee, Ms. 
Eleanor Holmes Norton, for her opening statement.
    Ms. Norton. Thank you very much, Mr. Chairman.
    I want to begin by indicating my appreciation for this very 
critical hearing, and I certainly want to thank you, Mr. 
Dodaro, for being here yet again to testify about what is now 
your eighth annual report on this very important issue.
    We sit here every year in the committee as the committee 
holds this hearing outlining the programs and the progress and 
the challenges we have. There have been, interestingly, 
different Chairs, and I suppose you haven't seen Mr. Russell 
and me, since we are imposters for the moment, sitting in for 
the Chair and the Ranking Member, but you get the point that 
there have been with each of your reports different Chairs--Mr. 
Issa, Mr. Chaffetz. Mr. Gowdy is now the Chair, and there may 
be someone new. In fact, Mr. Gowdy is leaving the Congress, so 
there will be yet another Chair. But isn't it important to note 
that we are always partners in these hearings.
    One constant we have noticed over these years is that the 
executive branch can certainly do better. I say this regardless 
of who is in the White House, regardless of who is President, 
and regardless of which political party she belongs to. I am 
sure my Republican colleagues would agree.
    However, in order to truly address these recommendations, 
we not only need a sustained commitment by the agencies 
involved, we also need sustained oversight from our own 
committee. Congress needs to follow up on these recommendations 
to ensure that the reforms are made. That is why today's 
hearing is so important.
    For example, the Department of Defense is the largest 
agency in the Federal Government by far. It is probably the 
largest agency in the history of the world. We need it to be 
successful because it defends the country, our people, and our 
freedom. But the Department of Defense wastes a phenomenal 
amount of money. Every dollar that is squandered is a dollar 
that could be gone to help protect our troops, our service 
members who risk life and limb to protect us every single day.
    To be clear, there has been progress. In 2011, when GAO 
issued its first duplication report, it recommended several 
steps to improve the way the Department of Defense develops and 
acquires weapon systems. The Pentagon implemented several of 
these recommendations and, according to the GAO, saved 
approximately $16 billion from 2011 to 2015. That is a terrific 
example of how the process is supposed to work.
    Unfortunately, there are dozens of areas in which the 
Department of Defense could do much better. This year, GAO's 
report says the Department of Defense still has 74 
recommendations that remain open, some of them dating back to 
2011.
    For example, the GAO made several recommendations for the 
Department of Defense to manage its commissaries more 
efficiently and reduce the size and staffing at various 
headquarters. Now, I understand that these may not be the most 
exciting issues, and they may not get headlines, but GAO 
reports that if the Department of Defense fully implemented 
these recommendations, they could save the American taxpayers 
$11 billion. To me, if our committee played even a small role 
in achieving these savings, that could be something we could be 
proud of, because $11 billion is a lot of money.
    For these reasons, I would like to make a modest proposal, 
Mr. Chairman. After today's hearing, I propose that our 
committee hold a follow-up hearing with the Department of 
Defense. Let's work with the Department officials to determine 
what they are, in fact, doing to address these issues and what 
more can be done to allow them to operate more efficiently and 
save more like that $11 billion I just spoke of.
    This really is the core of our committee's jurisdiction, 
and I hope we can make this happen.
    Mr. Dodaro, every year you and your talented staff provide 
us and the American people with a crucial service to make sure 
our tax dollars are spent wisely. So I want to, once again, 
thank you for your report and look forward to your testimony 
today.
    Thank you, Mr. Chairman, and I yield back.
    Mr. Russell. I thank the gentle lady.
    I am pleased to introduce our witness, the Honorable Gene 
Dodaro, Comptroller General of the United States. Mr. Dodaro is 
accompanied by the following people from the GAO, from my left 
to my right, who will also be sworn in: Ms. Cathleen Berrick, 
Managing Director for the Defense Capabilities and Management 
Team; Ms. Barbara Bovbjerg, Managing Director of the Education, 
Workforce, and Income Security Team; Ms. Angela Nikki Clowers, 
Managing Director for the Health Care Team; Ms. Edda Emmanuelli 
Perez, Deputy General Counsel; Mr. Mark Gaffigan, Managing 
Director of the Natural Resources and Environment Team; Ms. 
Jessica Lucas-Judy, Director of the Strategic Issues Team; Ms. 
Michelle Mackin, Managing Director for the Contracting and 
National Security Acquisitions Team; Mr. J. Christopher Mihm, 
Managing Director for the Strategic Issues Team; Mr. Dave 
Powner, Director of the Information Technology Team; and Mr. 
George Scott, Managing Director of the Homeland Security and 
Justice Team.
    Welcome to you all.
    Pursuant to committee rules, all witnesses will be sworn in 
before they testify. So I would ask that you please stand and 
raise your right hand.
    [Witnesses sworn.]
    Mr. Russell. The Chair will reflect that the witnesses 
answered in the affirmative, and please be seated.
    In order to allow time for discussion, please limit your 
testimony to 5 minutes. Your entire written statement will be 
made part of the record.
    As a reminder, the clock in front of you shows the 
remaining time during your opening statement. The light will 
turn yellow when you have 30 seconds left, and red when your 
time is up.
    Please also remember to press the button to turn on your 
microphone before speaking.
    It is now my pleasure to recognize the witness. Mr. Dodaro, 
please, we welcome your testimony.

                       WITNESS STATEMENT

                 STATEMENT OF HON. GENE DODARO

    Mr. Dodaro. Thank you very much, Mr. Chairman. Good morning 
to you, Ranking Member, Ms. Norton, members of the committee. I 
am very pleased to be here today to present our eighth annual 
report.
    I am also very pleased to report that, based on the first 
seven years that we issued this report, we issued about 724 
recommendations, 52 percent have been implemented, 24 percent 
have been partially implemented, and as a result of these 
actions there are financial benefits that have accrued or will 
accrue to the Federal Government of $178 billion.
    Now, most of these actions were due to the Congress taking 
action to pass legislation to deal with a number of issues that 
we had raised, and given Congress' critical role, in the 
appendix to our testimony today are 58 open recommendations to 
the Congress that we have made that could result in savings of 
tens of billions of dollars in additional money. So I commend 
those to your attention, be happy to talk about them today.
    In the new report that we are issuing today, we have 
additional tens of actions, 68 new actions, that can be 
implemented. For example, overlap and duplication in the U.S. 
Defense Department distribution centers could be made that 
could save, by DOD's estimate, $527 million over five years. 
There are tens of billions of dollars potentially that could be 
saved by treating low-level waste at the Hanford Repository 
with cheaper methods, and it could actually get the job done 
faster. Also at the Veterans' Administration, there could be 
tens of millions of dollars in additional savings by 
consolidating their medical and surgical supplies purchasing 
program. Also at the Coast Guard, they have identified 
themselves a number of stations that could be closed that 
overlap with other stations within the same timeframe that 
could respond to search and rescue, and that could save them 
millions of dollars and improve their operations as well.
    So these are a few examples that we have.
    Now, we also, from our prior work, in addition to these new 
examples, have a number of outstanding examples that still need 
to be fully implemented, and they range from taking actions at 
the IRS and some other revenue options that could increase the 
revenue coming into the Federal Government through more 
efficient practices, and also save a lot of money, particularly 
in the Medicare area and in the Medicaid program, which is the 
fastest growing part of the Federal Government's budget from a 
spending standpoint.
    So we are very pleased that you are holding this hearing. 
We appreciate the attention given to our work. My colleagues 
and I would be very pleased to respond to all questions. Thank 
you, Mr. Chairman.
    [Prepared statement of Mr. Dodaro follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    


   
    
    Mr. Russell. Thank you for that. We do appreciate all of 
the hard work.
    I will be holding my questions to the end, but it is my 
pleasure to now recognize the gentleman from North Carolina, 
Mr. Meadows, for 5 minutes.
    Mr. Meadows. Thank you, Mr. Chairman.
    Thank you to the whole team. Let me just say, each and 
every hearing, not just this annual hearing, but each and every 
oversight hearing where we have input from GAO, it improves the 
quality of the hearing, but it also improves the quality of the 
information. So to you, Mr. Dodaro, and your entire team that 
is here today, a heartfelt thank you from members of Congress 
for handling government accountability in a non-partisan way. I 
have wanted you to be partisan, and you have pushed back. You 
won't let me do that, and that is good because I think that 
gives confidence to both sides of the aisle. So I just want to 
say thank you.
    You mention a number of unimplemented requests, 58. Was 
that your testimony?
    Mr. Dodaro. Yes, 58 open matters for congressional 
consideration. We have 324 recommendations to the executive 
branch.
    Mr. Meadows. And so in doing that, we are talking about 
billions of dollars, not millions of dollars. Is that correct?
    Mr. Dodaro. Tens of billions.
    Mr. Meadows. Okay, tens of billions. So can you find any 
reasons, other than complacency, why Congress and the 
Administration shouldn't implement at least 10 percent of those 
recommendations?
    Mr. Dodaro. If I didn't think all of them shouldn't be 
implemented, I wouldn't make them, Congressman.
    Mr. Meadows. All right. So you would say even a higher 
threshold than 10 to 20 percent of those should be implemented. 
You would suggest all of them.
    Mr. Dodaro. Over time, over three-quarters of our 
recommendations are implemented in a four-year period of time. 
So the recommendations in this area are a little lagging behind 
the overall rate that we have for our recommendations. My goal 
and aspiration was that we could get at least to 75 percent, if 
not 100 percent.
    Mr. Meadows. All right. Well, you know well that what I 
will do is I will take a few of your things, and then we will 
start working on those and applying pressure. What would be 
helpful to me, and I want to drill down on the IRS for a second 
because it seems like, according to some of the testimony, that 
there are a number of really high-profile dollars that can 
potentially be saved, and I see that you are getting a new 
witness to the table. So let me ask what is the IRS doing right 
and wrong? I think there is also the suggestion that if they 
just delayed refunds for a while, they could save dollars. So I 
would ask you to help us understand that a little bit better.
    Mr. Dodaro. Yes, sure. Let me give you a broad picture, and 
then I will ask Jessica to give a little bit more details.
    First of all, we think the IRS, they need better 
information technology systems, no question about that.
    Mr. Meadows. So for the record, I am on my side of the 
aisle willing to give them additional appropriations to do 
exactly that. I think we have a bipartisan agreement on that, 
but go ahead.
    Mr. Dodaro. But it has to be managed properly, and we have 
made a number of recommendations, because they have wasted 
investments in the past in IT, years ago.
    Mr. Meadows. Right.
    Mr. Dodaro. Secondly, they need a customer service 
strategy. They really don't have a comprehensive strategy. They 
need a strategy for online services that could improve 
voluntary compliance, as well. Congress could help IRS by 
lowering the threshold for electronic filing for partnerships 
and corporations, also allowing more W-2 information to be 
submitted electronically from employers. They would help them 
match faster. They wouldn't have to delay the timeframe, as 
well. So we have a number of specific recommendations in those 
areas.
    The number of our recommendations are actually incorporated 
in the package of bills that the House has just passed on IRS 
reform, but there are others that weren't included that should 
be included in those areas.
    I will ask Jessica to--the operative word for calling 
another witness up here is drill down.
    Mr. Meadows. Okay, and we have 30 seconds for you to drill 
down before I get gaveled down, but go ahead.
    Ms. Lucas-Judy. I will talk just about the tax fraud and 
non-compliance that we have said the IRS should assess the 
benefits and the costs of holding all taxpayer refunds, not 
just the ones that are claiming the Earned Income Tax Credit 
and the ACTC. So later in the filing season, IRS' own analysis 
found that they could have potentially prevented an additional 
$35 to $350 million in fraudulent payments due to identity 
theft refund fraud just by adjusting the holding period for 
about two weeks.
    Mr. Meadows. Wow. All right.
    I yield back. Thank you, Mr. Chairman, for your leadership.
    Mr. Russell. The gentleman yields back.
    It is my privilege now to recognize the gentle lady from 
the District of Columbia, Ms. Norton, for 5 minutes.
    Ms. Norton. Thank you very much, Mr. Chairman.
    Mr. Dodaro, thank you again for being here. My questions 
are going to relate to your report on the warfighting 
equipment, the transfer to military depots and shipyards, and 
your view that they are not being run as efficiently as they 
could be.
    Under BRAC, which is the Base Realignment and Closure round 
in 2005, all of the services were required to transfer to the 
Defense Logistics Agency a function that we don't usually 
associate with the military, retail supply and storage and 
distribution functions as their depots by 2011.
    First, would you explain why this transfer was considered 
to be efficient for the government?
    Mr. Dodaro. Yes. The Defense Logistics Agency, DLA, has an 
up-to-date information technology system that can allow real-
time information in terms of the inventory drawdowns to trigger 
the orderings, so it is a much more efficient process. And the 
Air Force and the Navy, except for one exception, did transfer 
their responsibilities. But the Army and the Marines have not, 
and that is what ----
    Ms. Norton. And that is where I am going to focus. So these 
are light functions in the Defense Logistics Agency rather than 
spreading these functions among various parts of the military, 
as I understand it. It is kind of classic efficiency. But your 
report states that the Army and the Marine Corps have not yet 
transferred these functions to the Defense Logistics Agency, 
and neither have the Navy shipyards. The initial efforts to 
transfer these programs at the Air Force Logistics Centers and 
the Navy Fleet and Readiness Centers related, we are told, to 
personnel reluctance to trust the DLA.
    So first, let me know what kinds of personnel we are 
talking about. For example, are we talking about uniformed 
personnel being reluctant to transfer a function?
    Mr. Dodaro. I am going to ask Ms. Berrick, our Defense 
expert, to answer that question.
    Ms. Berrick. Thank you for your question. The reluctance is 
coming primarily from the civilians who manage this process at 
the maintenance depots within the Army and the Marine Corps. 
Now, the actual BRAC recommendation was that the services 
transfer the storage distribution and supply operations to DLA 
to achieve efficiencies. The Army and the Marine Corps did 
transfer storage and distribution. They have not transferred 
supply. They have raised concerns that retail supply operations 
are very interwoven with maintenance operations. The Army also 
raised the point that they recently developed a new information 
system that provided greater visibility to their supply 
operations. They were reluctant ----
    Ms. Norton. Do you regard their pushback for the reasons 
you named as worthy of your consideration? Or do you think they 
should continue, as the other agencies have done?
    Ms. Berrick. I think they should continue. Some of these 
same concerns were raised by the Navy and the Air Force Air 
Logistics Centers and maintenance facilities, that they 
overcome. For example, they were concerned that they wouldn't 
have visibility over supply operations. DLA actually gave them 
access to their information system that enabled that 
visibility. They saw savings of $710 million as a result of 
that consolidation.
    Ms. Norton. These are non-uniformed personnel. Would they 
too be transferred? I mean, I am trying to get at their 
reluctance and what you can do about their reluctance.
    Ms. Berrick. It does require transferring individuals from 
the services to the Defense Logistics Agency. That is part of 
what the transfer would entail. It also requires using DLA's 
business processes for managing the supply operations, versus 
the services.
    Ms. Norton. We have some of these outstanding since 2011. 
What can you do to--since you still stand behind the efficiency 
of these transfers, what can be done to speed these transfers?
    Mr. Dodaro. There are two things. One is to try to prevail 
upon the Defense Department themselves, which for the last 
three years, every year I send each head of a major department 
agency in the Federal Government a list of open GAO 
recommendations, and I prioritize which ones that I believe 
still should be implemented. So number one is working directly 
with the Defense Department.
    Number two, an alternative route, is when we go to the 
Congress and there are requirements put in the Defense 
authorization bill or the Defense appropriations bill that 
requires them to implement GAO's recommendations. Both of those 
bills this year included GAO recommendations that needed to be 
implemented, and that is how some of the savings that I 
reported, the $178 billion--the services, for example, were 
duplicating combat uniforms, which complicated even joint 
operations. It had an operational effect, as well as DAR 
effects. But the Defense authorization bill required them to 
deal with that issue. So we are trying both avenues, working 
with the agencies and working with the appropriate committees 
in the Congress.
    Ms. Norton. Thank you very much. We might even have a 
follow-up hearing to press this, since they are making some 
progress and may need a little more of a nudge.
    Thank you very much, Mr. Chairman. I yield back.
    Mr. Russell. I thank the gentle lady.
    The Chair now recognizes the gentleman from Iowa, Mr. Blum, 
for 5 minutes.
    Mr. Blum. Thank you, Chairman Russell.
    Mr. Dodaro, good to see you again. Thank you for being 
here.
    Shortly after I was elected three years ago, I held a town 
hall back in Iowa, and I was explaining what committees I was 
on, and I mentioned I was on the Oversight Committee and that 
our job was to investigate and bring some daylight to waste, 
fraud, and abuse. An elderly farmer raised his hand and he 
said, ``Waste, fraud, and abuse. Aren't those the three 
branches of government?''
    [Laughter.]
    Mr. Blum. True story, but not because of your department, 
that is for sure. There is a lot of cynicism out there is my 
point, and for the most part it is well deserved.
    I come from the private sector, and in the private sector 
failure is penalized. However, in Washington, D.C., in the 
swamp here, there is no penalty for failure. Would you agree 
with that?
    Mr. Dodaro. Not completely. I do think a number of people 
are removed or lose their job over time, perhaps not as many as 
should, and some agencies are forced to take action when they 
need to. But by and large, the incentives are not aligned 
properly to reinforce proper behavior and penalize 
inappropriate behavior or inefficiencies or waste. So I agree 
with you, with some exceptions.
    Mr. Blum. That was one of my comments, that the incentives 
in this town seem to be perverse to me. For example, what 
incentive is there for a government employee or an agency to 
save taxpayers money? What incentive is there? Is there any 
today?
    Mr. Dodaro. What we do is prevail upon people's commitment 
to public service and to be good stewards, and the reward 
system, like, for example, at GAO, I reward our people based 
upon what we are able to do to save people money, save 
taxpayers money. So there has to be a good reward system in 
place to do that. It doesn't exist throughout the Federal 
Government, though.
    Mr. Blum. In the private sector, if you save the company a 
million dollars, you probably get a percentage of that. You get 
some large bonus, and well worth it. I don't think we have that 
in the Federal Government, but what if we did? Is that an idea 
worth exploring?
    Mr. Dodaro. Yes, definitely. I think there should be 
positive reward systems in place, and theoretically the 
performance management systems in agencies should do that.
    Mr. Blum. Should, they should.
    Mr. Dodaro. They should.
    Mr. Blum. Do they?
    Mr. Dodaro. I am not positive in all cases it is at the 
level which you would expect. I am most familiar with our own, 
and I know at GAO it works that way. But I am not sure I could 
say that about the rest of the Federal agencies and 
departments. We have said that some of the performance 
management approaches in the Federal Government, the civil 
service system, are outdated. It is not aligned properly with 
modern compensation systems, modern classification systems. It 
needs revamped, and that could certainly be part of that 
revamping.
    Mr. Blum. Let's go to 60,000 feet, if we could, for the 
last minute and fifty seconds that I have. Let me ask you this 
question: Do you feel that our agencies are being held 
accountable? Do you feel that the management in those agencies 
are being held accountable, and that the employees in those 
agencies are being held accountable? And if you are going to 
say somewhat, give me a grade. Where are we at? Is it getting 
better, or is it getting worse? Because the Federal Government 
is getting so big, seriously, I question if it can be managed 
anymore.
    Mr. Dodaro. I definitely think it can be managed. Some 
agencies are better than others, okay? But by and large, I 
think that much more could be done to hold agencies 
accountable. I think this is Congress' responsibility. I think 
there needs to be more oversight hearings. I have said this a 
number of times. Where we see positive change, we see the 
Congress' hand has to be in this area, and that, to me, is very 
important.
    Now, we work also with OMB to try to create change within 
the executive branch, and I meet with the heads of departments 
and agencies as well to try to institute change. But really, 
the best incentives I have seen to hold people accountable over 
the years is good, rigorous congressional oversight. That will 
produce change, with or without legislation I might add.
    Mr. Blum. Some folks back in Iowa comment that, oh, you 
hold some great hearings, really good stuff, tough questions. 
What happens after that? What happens after the tough 
questions?
    Mr. Dodaro. There is not enough follow-up.
    Mr. Blum. How do we change that?
    Mr. Dodaro. I think you have to be clear. I have been 
involved in some things over the years where there is a series 
of hearings, you know? I remember in the Senate when initially 
we were having questions about the personnel security 
clearances that were not being done timely. They held hearings 
either every quarter or every six months. So there was a 
series. People knew from the agencies that it wasn't like, gee, 
I just have to get through this hearing and it is going to be 
over with, they will forget about it. You had follow-up 
hearings. You had follow-up meetings with the agency officials. 
GAO can help in the follow-up activities as well.
    So there has to be a commitment to follow through until you 
know that the problem is solved. It is not just bringing----
    Mr. Blum. That is where we come in.
    Mr. Dodaro. Yes, I agree. Congress does a good job at 
shining a light, but then as soon as the light goes away, the 
problem doesn't get much better.
    Mr. Blum. My time has expired, but hats off to you as a 
lone voice from the private sector. I think you are doing an 
amazing job. Your agency does an amazing job, and I, for one, 
am so glad that you are here today.
    Mr. Dodaro. Thank you very much.
    Mr. Blum. I yield back the time I do not have.
    [Laughter.]
    Mr. Russell. The gentleman yields back.
    It is my privilege now to recognize the gentleman from 
Tennessee, Mr. Cooper, for 5 minutes.
    Mr. Cooper. Thank you, Mr. Chairman.
    And thank you, Mr. Dodaro, for being here today. This 
report is so important.
    I would like to ask two Defense questions, so you may want 
to get your Defense person up here.
    Mr. Dodaro. All right.
    Mr. Cooper. First, in your appendix, you mention an unmet 
recommendation from 2013 about joint basing. I am on the Armed 
Services Committee, and I may need some help from my colleagues 
on both sides of the aisle on this. The Armed Services 
Committee has banned the Pentagon from even thinking about 
another BRAC round, even though the Air Force has testified to 
us that as much as 25 percent of their facilities are surplus, 
unneeded, a burden for the taxpayers, but they are unable to do 
anything to adjust that.
    So, I wasn't sure if your recommendation from 2013 on joint 
basing was specifically on that topic. You mentioned the Base 
Realignment and Closure Commission, but you don't quite nail 
the fact that Congress has stopped the Pentagon from trying to 
be efficient. We don't even allow them to think about that.
    Mr. Dodaro. There are two things that we have, and I will 
ask Cathy to explain in more detail. One is the excess 
infrastructure that they have. That is actually on the high-
risk list that we keep as far as the Federal Government. So we 
believe they need to do a better job in that area. We have also 
had many recommendations, and most of them have not been 
implemented yet, as to how the BRAC process could be improved, 
because they really didn't realize all the benefits that they 
promised in the initial activities in those areas.
    So if Congress decides that the next BRAC round, to go 
forward with that, I would suggest that that be conditional on 
implementing GAO's recommendation so you get better cost 
estimates and you get fewer changes along the way between the 
recommendations from BRAC and actually what gets implemented by 
the Defense Department, because you have a several-year 
timeframe in there.
    Secondly, on joint basing, this was an initiative by the 
Department, and what we found there was that it was to get 
common standards among the services. So instead of getting a 
common standard, they took the highest standard that any 
service had and raised everything up to that level in order to 
get buy-in. So they weren't really able to get, in any 
discernible way, cost savings.
    Cathy?
    Ms. Berrick. With respect to the joint basing 
recommendations, our overall position was that DOD didn't 
embrace that 2005 BRAC recommendation to try to achieve 
efficiencies with joint basing. A key objective of that 
initiative was to achieve some significant savings. But with 
the way they developed the common standards, as Gene mentioned, 
with the way they approached the effort, they really weren't 
designing it to achieve the savings that were possible.
    So we made a series of recommendations to DOD to re-look at 
their strategy for joint basing and take advantage of some 
opportunities for additional savings. DOD had concurred with 
that recommendation routinely. So we ended up recommending to 
the Congress that they direct DOD to take that action.
    With respect to BRAC generally, DOD has, I think, over the 
last seven years, requested a BRAC round. They, in fact, did 
not request it in their most recent budget estimate. But 
setting BRAC aside, a point that we have routinely made with 
the Defense Department is they do have some existing 
authorities to realign and close facilities under Title X, 
separate from BRAC. It does require a congressional 
notification if it exceeds certain thresholds. But DOD has 
never gone through the process to take any significant action 
that would actually require congressional notification.
    One of the new areas we mention in this year's report is 
the proliferation of distribution centers within the 
Department. There are 256 of them. DOD itself identified it can 
achieve significant savings, in the hundreds of millions of 
dollars, closing those, but they are not taking action on that. 
They are saying in the absence of a BRAC, they are not willing 
to use their existing authorities to do that.
    Mr. Cooper. Thank you. In my short time remaining, you 
mentioned that the transition to the new M-code GPS system will 
involve retrofitting 716 weapon systems with cards, and the 
Pentagon has no plan right now in place to unify the design and 
implementation of those cards, and most are not even funded. So 
this is a pretty crucial function, and we can't let any of 
these weapon systems be down because of a lack of communication 
with the satellite, and yet the Pentagon isn't planning 
sensibly to meet the needs. So what do we do?
    Mr. Dodaro. I think that the Congress should require them 
to have a unified approach to this area. I mean, even replacing 
a small amount of these receiver cards--in the receiver card, 
the M-code is to be a stronger code, to be encrypted, and it 
makes sense to do this. But what we have seen is there hasn't 
been a good coordination between actually putting the satellite 
up and having the ground system that could receive the signals 
and then transmit them to these receiver cards in the weapon 
systems.
    This report this year focuses on those receiver cards, and 
you are right, it has to get to so many weapon systems. They 
don't have a way to share lessons learned, to get common 
requirements. And what will happen, as we have seen in the 
past, without proactive leadership, the costs will proliferate, 
and then the Congress will be put in a box to say, well, either 
you give us the money or this investment is not going to work. 
I think Congress requiring them to have a better coordinated, 
better management approach on this could forestall a lot of 
problems down the road and certainly contain costs in a much 
better way.
    Mr. Cooper. Thank you very much.
    I see my time has expired, Mr. Chairman. Thank you.
    Mr. Russell. I thank the gentleman.
    I now recognize the gentleman from North Carolina, Mr. 
Walker, for 5 minutes.
    Mr. Walker. Thank you, Mr. Chairman.
    Mr. Dodaro, we thank you for your continued service to our 
country and appreciate your willingness to serve in this 
capacity.
    It is my belief that improved coordination between the Food 
and Drug Administration and the Food Safety and Inspection 
Service on the oversight of imported seafood would help the 
agencies better manage fragmentation and more consistently 
protect consumers from unsafe drug residues. So I have a couple 
of questions here.
    In your opinion, does it make sense to have a separate 
program at USDA responsible for the food safety of one species 
of imported fish when FDA is responsible for regulating safety 
for all other types of fish and seafood?
    Mr. Dodaro. We initially recommended that that not be 
funded, but Congress overrode us and decided that it needed to 
be implemented. So our approach now is Congress made that 
decision; at least we can make sure that they are coordinating 
effectively and operating together, and that is the focus of 
our recommendation at this point in time.
    Mr. Walker. I thank you. I believe you found an example of 
the USDA setting a safety standard for a drug residue at a 
level that was 20 times higher than FDA's standard. Should we 
be concerned about the safety of imported catfish with these 
kinds of numbers?
    Mr. Gaffigan. I think that we saw a lot of inconsistency 
between the FDA and FSIS. You give the example of the 20 times 
number. That is the genesis of our recommendation, and we are 
concerned that there is a discrepancy between the two agencies.
    Mr. Walker. Mr. Dodaro, you touched on this a little bit 
earlier in your comments. GAO has recommended better 
coordination. What are the current methods for sharing 
information between the agencies, and what change does GAO 
think needs to be implemented moving forward?
    Mr. Dodaro. They definitely need to have a Memorandum of 
Understanding to reach agreement on what drugs are tested. We 
also point out in the report that one of the agencies is 
testing 76 different drugs, another one only 27 different 
drugs. So they need to come to some agreement on this, and 
typically the mechanism for that agreement is a Memorandum of 
Understanding with written roles and responsibilities, written 
agreement to come to a common testing approach and sharing of 
information to make sure that it is consistent with the 
industry and also an efficient use of Federal resources and 
that they have the proper people to do that. So that is what we 
are recommending that they do.
    Mr. Walker. Anything that you ----
    Mr. Gaffigan. Just the commitment to do what they have 
talked about doing through some of these MOUs.
    Mr. Walker. Do you believe there are steps Congress should 
take to ensure the effective coordination that has some teeth 
to this? Is there something that you would recommend?
    Mr. Dodaro. Yes, yes. I mean, there should be reporting 
requirements that Congress puts on the agencies to report their 
progress in implementing GAO's recommendations. I would very 
much support that and would think it would be needed. A number 
of times agencies will tell us that they are going to implement 
the recommendation, but we don't close it until they are 
actually finished and have something in place, and sometimes 
these things get implemented and sometimes they don't because 
of bureaucratic resistance to change in a lot of cases, to be 
honest. So I think Congress' oversight and have them to report 
their progress until it is fully implemented would be 
warranted.
    Mr. Walker. Was there something else?
    Mr. Gaffigan. And you could keep asking us to look at it, 
and we will come up with those examples to put the light on it.
    Mr. Walker. As long as there are people like Mr. Meadows 
and others, I imagine those questions will continue to come 
forward.
    Once again, thank you. I have notes in front of me for my 
four questions. You have no notes in front of you but continue 
to answer the questions. Thank you for being so well informed.
    I yield back, Mr. Chairman.
    Mr. Russell. The gentleman yields back.
    It is now my privilege to recognize the gentle lady from 
Illinois, Ms. Kelly, for 5 minutes.
    Ms. Kelly. Thank you, Mr. Chair.
    And thank you, Mr. Dodaro, for your exceptional efforts in 
GAO to compile the 2018 duplication report.
    Back in 2014, Congress passed the Veterans Access, Choice, 
and Accountability Act to help the Department of Veterans' 
Affairs address serious problems with appointment scheduling, 
unreliable data on wait times, and inadequate coordination of 
veteran care between VA and non-VA medical providers. The 
Choice Act established the Commission on Care, which concluded 
in June 2016 that the care by the Veterans' Health 
Administration is inconsistent from facility to facility. 
Several of the Commission's recommendations focused on the VA's 
workforce. GAO's latest report found that, ironically, the 
Veterans' Health Administration's overall workforce problems 
could be traced to its own HR staff decreasing in size, not 
being adequately overseen, and lacking any assessment of skill 
gaps and training. Do you agree?
    Mr. Dodaro. Yes.
    Ms. Kelly. In turn, the GAO report said the attrition in HR 
offices has led to difficulties in hiring for clinical 
positions in medical centers and increases in administrative 
errors. Is that also your understanding?
    Mr. Dodaro. Yes, that is what we reported and made 
recommendations to address that issue.
    Ms. Kelly. On a positive note, the GAO report states that 
as of January 2018, staff at the Department of Veterans' 
Affairs had developed and began using an online competency tool 
to identify competency gaps in the Human Resource offices at 
the medical centers. The Department has also established clear 
lines of authority to require HR staff to complete a competency 
assessment. However, the Department still must use this data to 
address competency gaps in Human Resource offices. Is that also 
your understanding?
    Mr. Dodaro. Yes, it is. I am pleased they are taking some 
action, but they need to follow through, just as we talked 
about in the prior exchange with the Congressman.
    Ms. Kelly. As of a year ago, the Department of Veterans' 
Affairs said it was in the early stages of revising its 
performance management system. This revision included effective 
use of both monetary and non-monetary awards to promote 
employee performance. It also explored the use of the e-
performance information technology system to appraise employee 
performance.
    Can you give us an update as to the Department's efforts 
since then?
    Mr. Dodaro. They really haven't taken much action since 
then according to our team. They have not in that area. They 
moved in the other area that you mentioned, but they haven't 
moved in that area.
    I think it is very important. The exchange I had with 
Congressman Blum talked about the incentives and disincentives, 
and really you need to have a good performance management 
system that is up to date in the Veterans' Health 
Administration. So I will urge them when I meet with the new 
Secretary. I met with Secretary Shinseki, Secretary McDonald, 
Secretary Shulkin multiple times to try to urge them to 
implement GAO's recommendations. I will continue to press in 
this area. We designated veteran health care a high-risk area 
in 2015, so I and our team are dedicated to follow up.
    Ms. Kelly. So, just their lack of follow-up is what you 
think will improve performance ----
    Mr. Dodaro. Yes, and right now they need leadership. I 
mean, they need leadership. I am very worried about the 
Veterans' Administration. They have some of the most entrenched 
management problems in the Federal Government. That is why we 
put them on the high-risk list. They are making efforts to come 
up with a plan now, but it has been three years since we put 
them on the list. They really haven't finalized a good plan to 
come off the list. We are working with them. They are making 
progress. I don't want to say that they are not. But there 
needs to be more urgency to deal with their problems over 
there, and there are key vacancies not only now at the 
Secretary level but also some of the Undersecretary positions. 
The CIO is open.
    So I think Congress should be very concerned and focused on 
getting proper leadership over there, and then make sure that 
there is effective follow-up to resolve their problems. I think 
our veterans deserve no less.
    Ms. Kelly. I definitely agree, and I guess that was my next 
question, what more can Congress do ----
    Mr. Dodaro. A lot, a lot, and I would be happy to work and 
have our team work with the Congress in doing this. We have a 
great deal of knowledge. Nikki Clowers is here. She is our 
expert in the Veterans' Administration. We have been working 
with the VA committees as well. But I think Congress' role in 
this whole area is very pivotal.
    Ms. Kelly. Thank you for your honesty, and we need to take 
you up on your offer.
    I yield back.
    Mr. Russell. The gentle lady yields back.
    It is my privilege to recognize the gentleman from Alabama, 
Mr. Palmer, for 5 minutes.
    Mr. Palmer. Mr. Dodaro, first of all, let me thank you and 
your staff for the outstanding work and cooperation on some 
critical issues that you have brought to this committee's 
attention on numerous occasions that is dealing with improper 
payments, and also the tax gap. In that regard, I would like to 
ask you what is the last year that the IRS reported on tax gap?
    Mr. Dodaro. I think it was based on 2008. Yes, 2008 
information, and that estimate was a net tax gap of a little 
over $400 billion as an annual.
    Mr. Palmer. It is $406 billion.
    Mr. Dodaro. Right.
    Mr. Palmer. They don't report annually. It is on a periodic 
basis. Is there any rhyme or reason that determines when they 
report that?
    Mr. Dodaro. No. You know, initially, years ago, they didn't 
report an estimate. It was a GAO recommendation that required 
them that they finally implemented to come up with it. In all 
fairness, it requires a lot of effort and time, and they 
certainly haven't had excess resources lately to do it. But I 
think it could be done on a more regular basis. Right now, it 
is just dependent on them. I mean, Congress could set a 
reasonable interval for them to update that information, 
particularly given the changes that have been made in the tax 
law recently. I would hope after a period of time and some 
experience, they update it.
    Mr. Palmer. I would appreciate it if you would add some 
recommendations on what that timetable ought to be, and if you 
would provide them to my office. In that regard, that is one of 
the points that I have been raising about the tax reform, that 
one of the main objectives was to reduce the complexity of the 
tax code in order to reduce the uncollected taxes, to reduce 
the tax gap. You have made numerous recommendations that I 
think we need to implement, the IRS needs to implement, and 
Congress needs to exercise oversight over it, because it is one 
of these things where I tell people we have moments here when I 
think my head will explode, and when we talk about $800 billion 
deficits, and half of that could have been erased by collecting 
all the taxes, plus the interest on that that we are having to 
borrow, that drives me nuts, along with my next topic, which 
you are well familiar with, and that is improper payments. We 
are, again, very fortunate to have the expertise of the GAO 
available to try to work out a reasonable solution.
    I want to talk a little bit about some specifics on the 
improper payments. The premium tax credit improper payments, we 
don't really talk about that a lot. You have a number in your 
report of $35 billion. Is that savings, or is that the net 
cost?
    Mr. Dodaro. That is the total cost.
    Mr. Palmer. Okay. Do you have any idea of what we might 
expect in savings?
    Mr. Dodaro. No, not really, yet. They really haven't done a 
lot of the proper assessments and have much experience in that 
area yet to come up with any estimates. I think it would be 
good to press them to move forward in that area, and then 
congressional encouragement would be helpful.
    Mr. Palmer. When we talk about encouragement, people 
generally interpret that to mean negative. I think we ought to 
take a more positive approach to this on the whole spectrum of 
improper payments, and you touched on this earlier with the IRS 
with their outdated IT systems. That is a problem throughout 
the Federal Government.
    If you look at the improper payments, and this is the work 
that your staff has done, over 20 percent of the problem is 
antiquated data systems. I think that lends itself to other 
errors on the administrative side, which is another 30-
something percent. So if we could deal with this in a more 
positive way, and one of the things that I am thinking about 
doing is that the savings that we get by eliminating improper 
payments might go back into replacing antiquated IT systems, 
then I think it needs to be done Federal Government-wide so 
that you have the interfaces that are necessary. It is one of 
the problems with Social Security. What do you think of that?
    Mr. Dodaro. Yes, I think that is a very good idea. The 
systems are a key part of this, particularly if you wanted to 
prevent things from happening up front. But there also has to 
be good data sharing to go along with that. You can have great 
systems, but if they are not allowed to share data--like, for 
example, one of our recommendations is that the Congress direct 
the Social Security Administration to give the full death 
master file to the Treasury Department. I mean, it doesn't make 
any sense to me that we have a ``Do Not Pay'' list, and we have 
one department that has the most comprehensive list of deceased 
people that won't give it to the Treasury Department because 
they believe it can't be shared. Another example is in our 
Railroad Retirement Board. They are using earnings data that is 
two or three years old from IRS, and they need access to the 
new hire database.
    So I think a combination of proper incentives, and I am 
glad to see the Administration set a goal for reducing improper 
payments, and they have IT modernization on the President's 
management agenda, but there has to be sharing of information 
to go along with it to really, I think, have a comprehensive 
package.
    Mr. Palmer. Well, my goal for reducing improper payments is 
considerably higher than the Administration's. I have had this 
conversation with OMB Director Mulvaney, who is a dear friend.
    But again, I commend you. I am one of these odd birds that 
looks forward to the GAO reports. There are some people who 
look forward to the next great novel. I look forward to the 
next great GAO report.
    Mr. Chairman, I yield back.
    Mr. Russell. The gentleman yields back.
    It is my privilege now to recognize the gentle lady from 
Michigan, Ms. Lawrence, for 5 minutes.
    Ms. Lawrence. Thank you.
    I just want to say publicly, Mr. Dodaro, thank you and your 
staff for putting together this report. As my colleagues have 
mentioned, it is impressive that your recommendations have led 
to $178 billion in taxpayer savings over the past years.
    One example that I really want on the record is one of the 
past recommendations that has helped to make a difference to 
the people in my state. In 2016, the GAO recommended that the 
Treasury relocate up to $2 billion from an underused program 
and move it toward the hardest hit fund. As a result of that, 
it went a long way for cities like Detroit to remove blight and 
to take care of the neighborhoods. So I want you to really have 
that sense of what you do is making a difference, and I just 
want to say thank you to your staff.
    One of the areas, Mr. Dodaro, is IRS for me, as well. Major 
changes to the tax laws will hit everyone in 2019, and I want 
to know if the IRS is helping families understand the impact, 
and especially low-income families. There are needed taxpayer 
assistance and outreach, and there is a proposed $23 million 
cut to IRS. Can you describe GAO's current efforts to monitor 
the IRS and what it plans to do over the next years to ensure 
that the community has the support that they need in low-income 
areas?
    Mr. Dodaro. Yes. For a number of years we have had an 
outstanding recommendation that IRS needed to improve their 
customer service strategy. We are looking at their efforts to 
do that now and the implementation of the new tax law. Ms. 
Jessica Lucas-Judy here is our expert in the IRS, and I will 
ask her to elaborate on what we are doing.
    Ms. Lawrence. Okay. Thank you.
    Ms. Lucas-Judy. For customer service, we have said that 
they need to have a comprehensive strategy, and they have put 
together a draft. So we are looking at the extent to which it 
lays out specific, realistic targets for phone service and 
correspondence and, more importantly even, that it lays out a 
road map for them of what resources are needed to get them 
there.
    In addition, as Mr. Dodaro said, we are also looking at 
their implementation of the changes to the tax law. As you 
know, there are quite a few things that the IRS has to do.
    Ms. Lawrence. Quite a few.
    Ms. Lucas-Judy. And so we are looking at how they are 
communicating those changes, how they are making decisions 
about prioritizing.
    Ms. Lawrence. So, with all the vacancies that you outlined 
and the challenges that we see, if the cuts are made to IRS, 
when do you alert Congress that we are getting ready to step 
into a crisis? I understand the yearly report, and you even 
stated that our response rate is that Congress has addressed 
about 42 percent of your recommendations. How do you bring to 
our attention are the committees looking at the 
recommendations? And specifically, what is the impact if we 
don't act on these recommendations? You give your report, but 
we are only looking at 42 percent of them.
    Mr. Dodaro. I think, first of all, we try to alert the 
Congress through our reports. We testify before a wide range of 
congressional committees every year. We brief congressional 
staff every day.
    Ms. Lawrence. Every day.
    Mr. Dodaro. Every day on our work. I mean, we have close 
working relationships with virtually all the committees and the 
Congress, about half of the subcommittees that we do work for. 
We do about 800 requests a year from the Congress. So we are 
constantly trying to alert the Congress to emerging problems 
and challenges and encouraging them to implement our 
recommendations.
    Ms. Lawrence. How do you alert Congress?
    Mr. Dodaro. Pardon me?
    Ms. Lawrence. What format do you use to alert Congress?
    Mr. Dodaro. Well, we have two formats. We have this annual 
report. We have regular reports that we issue virtually every 
day on specific topics. Last year we issued about 700 reports 
to the Congress, with over 1,400 recommendations. And then 
every two years we issue a high-risk list of the highest risk 
in the Federal Government.
    Ms. Lawrence. That is what I wanted to hear.
    Mr. Dodaro. And if there is something that I think rises to 
that level out of the interim two-year period, we do a special 
announcement. We just did one in January on personnel security 
clearances across the government. I am very concerned. There 
are 700,000 backlog of clearances that are not being made. It 
is not clear how the transfer is going to work between OPM and 
DOD on a number of issues. They don't have quality standards 
yet in place, metrics for the security clearances. The timing 
is still not good in terms of them getting it done in a timely 
manner. So I think this is a big national security issue, and I 
put it on the high-risk list on the cycle.
    The last high-risk list I raised the 2020 Census. I am very 
concerned ----
    Ms. Lawrence. I am very concerned.
    Mr. Dodaro.--about the 2020 Census. So we do regular 
hearings on that, as well.
    At GAO, we try to keep the Congress very informed about our 
views on risk and what needs to be done to address the risk. 
Now, the recommendations that have not been implemented, quite 
frankly, we are leaving tens of billions of dollars on the 
table in savings that could be made. I think the Congress could 
be more aggressive in their oversight of the agencies to ensure 
effective implementation of our recommendations, and I would 
encourage that, and GAO will support you.
    Ms. Lawrence. Thank you. My time is up. I just want to say 
to the Chairman that the high-risk list should be something 
that is a priority for us to bring forward in our hearings, as 
well. Thank you.
    Thank you so much.
    Mr. Dodaro. You are welcome.
    Mr. Russell. The gentle lady yields back.
    I now recognize the gentleman from Kentucky, Mr. Comer, for 
5 minutes.
    Mr. Comer. Thank you, Mr. Chairman.
    If time permits, I have questions pertaining to two vastly 
different subjects. The first would be the Social Security 
disability appeals process. Then second would be about STEM. I 
don't think you can get further apart than those two issues, 
but I am going to try in my 5 minutes to address those two 
issues with questions.
    First of all, in Kentucky, to say that the Social Security 
disability program is abused would be an understatement. We 
have certain counties in Kentucky where you drive down the road 
and every billboard is a disability insurance law firm. Some of 
those counties have as many as one in four adults between the 
ages of 18 and 63 that are drawing full disability, and then we 
have counties in Kentucky where that number is smaller than 1 
out of 20. So it just kind of depends on the location in the 
state and the number of people that are involved in that 
industry in Kentucky.
    But one of the things that we deal with in my congressional 
office is, obviously, case work. We have people that are truly 
disabled that we are trying to get through the process, and the 
appeals process sometimes takes a long time, and these are 
legitimate people who really are disabled who have paid into 
the Social Security system that are trying to get their 
disability insurance. They get frustrated because they know 
people that have probably abused the system in the past. It is 
just one of the things that we spend a lot of time with my 
caseworkers dealing with.
    I know that the Social Security Administration has reviewed 
this, and in 2017 the GAO recommended that SSA systematically 
evaluate its quality assurance reviews and take steps to reduce 
or better manage unnecessary overlap among them.
    My first question is, there are five separate quality 
review processes. Why does SSA have five separate quality 
assurance review processes?
    Mr. Dodaro. That is the question we asked and asked them to 
take a look at. We don't think they need all of them.
    Barbara Bovbjerg is our expert in this area, and actually 
she is our expert in STEM too. So while you have two different 
topics, we have one expert to cover it for you.
    Mr. Comer. That is great.
    Mr. Dodaro. Barbara?
    Ms. Bovbjerg. We were surprised that they had five 
different processes across a couple of different components at 
SSA. They all have the same overall goal, which is to make the 
appeals result more accurate and to help the administrative law 
judges do a better job. They look at the cases a little 
differently, but they sample in roughly the same way. So they 
can actually be looking at the same case in more than one 
quality assurance review.
    So we thought they should really look at that. It is not a 
lot of money in the context where we are talking about Defense 
and VA health. It is $11 million. But we thought that they 
could coordinate and potentially improve the quality assurance 
process as they do that. They have taken some steps. They have 
created another component in which four of these five are in 
that component.
    Mr. Comer. So are they currently taking steps to review the 
process?
    Ms. Bovbjerg. They are taking steps. They are not there, 
but they have just begun.
    Mr. Comer. How else could the Social Security 
Administration resources better utilize in terms of processing 
disability claims?
    Ms. Bovbjerg. They have put a lot of emphasis at the 
appeals level because what you are seeing is it can take more 
than 600 days now that people are kept waiting for an appeals 
decision, and that is a long time when you are not working and 
waiting.
    Mr. Comer. And legal fees are piling up, as well.
    Ms. Bovbjerg. Yes, and they have done things--for example, 
they are taking cases--they may take a case from Kentucky, and 
if the Kentucky administrative law judge group is really, 
really backlogged, they will send that case to another ALJ 
group to try to move things along. We actually have a report 
coming out on that in the next couple of months.
    They are doing a number of things. But what happens is they 
focus on appeals, and they take their eye off the initial 
decision-making ball, and then people start waiting longer for 
an initial decision. So we are trying to get them to look at it 
holistically.
    Mr. Dodaro. And, Congressman, we would be happy to give you 
a comprehensive list of every recommendation we have for the 
Social Security disability process, including appeals and 
initial claims. This has been on our high-risk list--I just 
mentioned that--for well over a decade. So I think this could 
be an important issue. And it is not only Social Security, it 
is VA as well. That is on our high-risk list, too. I just 
testified at their appeals reform hearing that we had. So we 
will give you a comprehensive list.
    Mr. Comer. Okay. Thank you.
    My time has expired, so I didn't get to ask the questions 
about STEM, but I appreciate your interest and look forward to 
getting that report, and I yield back, Mr. Chairman.
    Mr. Dodaro. I would be happy to give the answers to the 
STEM for the record, or meet with you separately, Congressman.
    Mr. Comer. Sure.
    Mr. Russell. The gentleman yields back. We may have some 
time for follow-on questions, if you would like.
    I now recognize the gentleman from Virginia, Mr. Connolly, 
for 5 minutes.
    Mr. Connolly. Thank you, Mr. Chairman.
    Welcome, General Dodaro. Good to see you again. Let me say, 
I think the high-risk list is one of the most important things 
you all do in terms of giving us guidance and throwing down red 
flags in areas of concern, and we want to try to redouble our 
efforts to work with GAO and your team to address those issues.
    One of the issues, of course, that was on that list that I 
took seriously when I came to Congress, among many, was the 
whole issue of how the Federal Government manages and procures 
information technology. I am just wondering, in terms of 
duplicative cost--and I see you have been joined by Mr. Powner, 
who has worked diligently with us on implementation of 
legislative vehicles designed to address that concern you have 
highlighted, and we are going to do more. We are drafting a 
bill right now that we will be working with you on, and we want 
to make sure that scorecard captures progress, or lack thereof.
    But could you talk a little bit about the role of IT in 
terms of duplication, duplicative cost? Because we look at 
legacy systems, people look and say, my God, we are spending 
$96 billion a year on IT in the Federal Government, but so much 
of that is designed to simply keep Band-Aids and wire together 
to keep legacy systems running, but also there are duplicative 
costs. You have multiple email systems, some of which don't 
talk to each other. You have all kinds of software, some of 
which is outdated and so forth.
    So I just wondered if you could, either one of you or both 
of you, talk about that, because that is something we can do 
something about tomorrow, in theory. We are trying our best to 
create a legislative framework to push that along, but I would 
like to hear your thoughts on that.
    Mr. Dodaro. That is definitely a potential area for 
billions of dollars in savings. Data center consolidations--
there were over 12,000 data centers when we started this 
initiative in OMB and working with the Congress before. Several 
thousand have been closed. By the end of this year, hopefully 
over 7,000 will be closed. That is billions of dollars in 
savings. But even on the existing data centers, they are not 
fully utilized if you look at their performance metrics, both 
from a server standpoint as well as the facility itself, 
software inventories, new systems, consolidations.
    I will ask Mr. Powner, who knows the details, to give you a 
little bit more details. But I think this is a target-rich area 
for the Congress, and we are poised to work with you to try to 
identify more opportunities for savings.
    Dave?
    Mr. Powner. Representative Connolly, if you start with data 
centers, we have saved about $4 billion to date, and your 
oversight has been instrumental with follow-up hearings, with 
the scorecard. We have had five, and there is another one 
scheduled next month.
    But when you really look at data center consolidation, 
there is a lot more on the table, as Comptroller General Dodaro 
mentioned, billions more. DOD alone, when we started data 
center consolidation, had an estimate of $4.8 billion in 
savings. They have only saved a couple of hundred million. So 
there is a huge opportunity there.
    When you mentioned the duplication, we saved about $2 
billion on duplicative email HR systems and the like. We still 
have a long way to go there. We are well aware, based on the 
work we are doing for you on individual requests and your 
scorecard, that there are many more opportunities to reduce 
those duplicative commodity systems.
    Mr. Connolly. I do want to say I think this is a great 
example of what you were talking about in response to my 
colleagues, the collaboration actually, not just guidance from 
but hands-on collaboration from GAO and this committee in 
trying to effectuate positive change that frees up dollars, 
saves dollars, and makes the government more secure and more 
efficient. And I want to applaud Mr. Powner and you, Mr. 
Dodaro, for taking that lead and doing it. I think that is 
really terribly important.
    Mr. Dodaro. It is also a good example, if I might add, 
Congressman, of the importance of congressional follow-up.
    Mr. Connolly. Yes.
    Mr. Dodaro. And I think compliments are due to you, Mr. 
Hurd, Mr. Meadows, Ms. Kelly, for your constant follow-up in 
these activities, and that is what can be yielded, billions in 
savings, more efficient operations, but it requires that 
commitment. We are happy to do our part.
    Mr. Connolly. I would just end with a thought. I was 
listening to one of the questions about how do you keep us 
informed on this list, and it may be that we may want to look 
at a mid-year reminder. You gave us 70 recommendations. We have 
acted on 30. There are still 40 more to go. We estimate that 
could save $10 billion, because our attention span up here, we 
have been accused of having a very short attention span, and I 
think that is very unfair, but a little reminder list might 
help. So we might want to work on some mechanisms so we keep 
those issues in front of us, because I don't think it is always 
willful ignoring of the recommendations. I think sometimes we 
just, in the hustle and bustle of life in this town, we lose 
focus.
    Mr. Dodaro. We would be happy to do that, and I have also 
encouraged--we do update the list with the beginning of each 
new Congress, and I have encouraged particularly oversight 
committees to have a series of hearings on the individual areas 
that I think would be helpful. But this year we started, and I 
wanted to do updates on a couple of critical areas. So we are 
due to have an update on the cyber security issue, critical 
infrastructure protection, protecting personally identifiable 
information, later this summer. We will make sure to do that.
    Mr. Connolly. We look forward to working with you.
    Thank you, Mr. Chairman.
    Mr. Russell. The gentleman yields back.
    I am pleased now to recognize the gentleman from 
Massachusetts, Mr. Lynch, for 5 minutes.
    Mr. Lynch. Thank you, Mr. Chairman.
    Welcome back, Mr. Dodaro. You have been doing great work 
for a long time, and we really appreciate it. There is a 
definite harmony between the work on this committee and the 
work that your folks do.
    I want to raise an issue regarding retroactive 
classification. We talk about the information we get in order 
to make decisions that are necessary. In Afghanistan, we have 
come upon this change that was introduced by the Trump 
Administration recently where the information that we usually 
get from the Special Inspector General for Afghan 
Reconstruction used to send us publicly available information 
quarterly about troop size, about the Afghan National Army 
performance assessments, casualties, operational readiness, 
actual and authorized strength figures. We had these ghost 
units. We are paying 75 percent of the freight in Afghanistan 
right now. We give them $5 billion a year, American taxpayer 
money, to pay their troops, and we cannot discuss publicly and 
the public doesn't get information about the fraud that was 
going on there for a very long time, and may still be going on. 
We have people on the ground there, but we don't get 
information on the trained and untrained personnel. They have 
even classified U.S. air strikes now in Afghanistan.
    So there is a whole swath of information that under 
President Bush and President Obama, that information came 
directly to the public and to Congress so we could talk about 
it. We have folks on the ground there, and we require that 
information to act decisively on behalf of our sons and 
daughters in uniform, and we need information on that war. We 
are at war.
    So Mr. Cummings and I wrote a letter to the Trump 
Administration saying that we wanted that rescinded.
    Could you talk a little bit about the obstruction and the 
difficulty for you and for Congress in doing our jobs with the 
lack of information coming out of DOD right now, and also 
coming out of Afghanistan?
    Mr. Dodaro. I asked Cathy Berrick to join me. She is our 
Defense expert, so I will ask her to give her views on this. 
But I would say right after 9/11 we saw a change in the 
classification approach in the Federal Government to classify 
more documents. After that occurred, we were asked to look at 
the classification practices of a number of agencies and to 
look at whether or not they were being consistent and what 
their procedures were for classification. They seemed to be 
settling down and an equilibrium in place over time, but what I 
have seen over the years is that sort of approach ebbs and 
flows over periods of time. I think it is very legitimate 
questions that Congress should ask about the level of 
classification.
    We don't have classification authority at GAO. We are bound 
by law. We have to treat the information that we use in the 
same manner as the agencies that we receive the information 
from. What we try to do is produce a detailed classified report 
and then a public version of virtually everything that we do, 
but it is not easy to do that and to get the classification 
approaches through DOD and State and other agencies, Homeland 
Security. It is not just DOD.
    But Cathy can give you a little bit more insight. We would 
be happy to work with you on this issue.
    Mr. Lynch. Please. Thank you.
    Ms. Berrick. As you mentioned, there is an initiative 
within the Defense Department to look more closely at 
information they allow to go into the public domain, and we are 
certainly experiencing that on our products when we send them 
to the Department for a sensitivity review. Just earlier this 
week we issued a public version of a classified report on DOD's 
first deployment of the F-35 to Japan that identified some 
significant issues that are in the classified domain.
    I will make a couple of points. First, as we can certainly 
still brief you all and the congressional staff on the results 
of our classified work given that they have clearances, so we 
will continue to do that. We also have been asked, given this 
concern, to look specifically at classification within the 
intelligence community, how they are handling that for the 
intelligence agencies, half of which fall into the Defense 
Department. So we will be looking at that in detail and 
providing recommendations to you all. In my experience as well, 
this tends to ebb and flow as Congress raises concerns, as the 
press asks more questions. We will see what, if any, changes 
the Department makes.
    Mr. Lynch. Thank you.
    I do have a classified briefing in the SCIF tomorrow 
afternoon with the Special Inspector for Afghan Reconstruction, 
but obviously I can't discuss that with my constituents, and 
they are paying the bills.
    But thank you both for your wonderful work. I really 
appreciate it. Thank you.
    I yield back.
    Mr. Russell. The gentleman yields back.
    I now recognize the gentleman from South Carolina.
    Mr. Sanford. I thank the Chair.
    I am going to get into questions in just a moment on both 
VA medical supply and DOD headquarters reductions and workforce 
requirements based on that not really being covered thus far in 
the hearing. I would love to hear your thoughts on both of 
those.
    But before I do, I am just struck by the fact that Milton 
Friedman once observed that the only way to make government 
more efficient was to make it smaller, that fundamental to the 
democratic process was inefficiency. If we wanted efficiency, 
we would go out and get a king or a dictator. They can be quite 
efficient. We would lose the open political system, but the 
back and forth, one man's gold is another man's dirt, and vice 
versa, that there is just built-in inefficiency.
    So I am just struck in reading this report, when you talk 
about tens and tens and tens of billions of dollars of 
discovered waste, and that is not even the undiscovered portion 
that might be out there--was Milton Friedman right?
    Mr. Dodaro. Well, I am not an economist by training, but I 
am an auditor, and I have been a student of government for 45 
years, and I would say that when things don't work in the 
government, a new thing is created, and the old thing remains. 
That cumulative process over time adds clearly to the 
inefficiencies in government operations, and there is a lack of 
attention to routinely addressing these issues both in the 
executive branch and in the legislative branch. I think both 
branches can do much more to make government more efficient, 
and we are happy to help in that regard.
    Mr. Sanford. And I appreciate your work on that front. So I 
will take that as a yes, that Milton Friedman was right, that 
ultimately an important measure toward making government more 
efficient is, in fact, making it smaller, because indeed you 
used the word ``built-in.'' There are built-in inefficiencies, 
and I think we all acknowledge those in looking at this 
process.
    Getting down into the weeds, in the few minutes that I 
have, I don't know what you would rather stress, but I would 
love to get your thoughts on both the VA medical supply, given 
its importance to a lot of veterans out there, and/or DOD 
headquarters, going back to how you just framed it, that 
oftentimes we come up with the new but we still leave the old. 
Some of the headquarters are redundant from a need standpoint, 
thoughts on that as well. I would be curious to hear thoughts 
on both of those.
    Mr. Dodaro. Sure. First on the VA medical and surgical 
supplies area, they started an initiative that was intended to 
save about $150 billion, and this was to consolidate purchasing 
across all their medical centers. But they limited the number 
of items that they wanted to collect, they had no over-arching 
strategy, they were supposed to involve the clinicians in 
deciding how to do this and they didn't do that as much as they 
should have, and thus they weren't very successful with their 
initiative.
    So we made a number of recommendations on how to address 
that and actually achieve some of those savings. So they are 
starting to move out, adding more commodities that could be 
made. The VA medical centers operate in a very decentralized 
operation, and certainly consolidating purchasing power across 
a regional and a national basis would save tens of billions of 
dollars over there in those supplies and operations, but you 
have to have an organized, stable leadership and approach to 
realize those savings over time.
    So I think we are trying to get them into a better path 
now, but it will require a lot of follow-up to achieve those 
savings.
    Mr. Sanford. Can I be really rude? Just because I am down 
to a minute and 7 seconds.
    Mr. Dodaro. Okay, yes.
    Mr. Sanford. I would love if you would quickly address the 
other, as well.
    Mr. Dodaro. Yes, I was. I was just going to move to that.
    Mr. Sanford. Okay, I'm sorry.
    Mr. Dodaro. We are in the same cadence.
    Headquarters consolidation at DOD, a lot of money there. 
What we found was that DOD set a goal to reduce it by 20 
percent, but our question was 20 percent of what? You really 
didn't have a good definition, a good baseline figure. So they 
need to have more figures. They don't have a good accounting 
for how many contractors they have at DOD. So we have said, 
look, if you want to have that goal, you need a better 
strategy. You have to set a baseline, you have to track it over 
time, you have to identify what kind of workforce mix you 
really want in terms of military/civilian and contract support 
activities. So they are focused on trying to improve and gain 
efficiencies in that area. We are giving them continuing 
advice.
    Mr. Sanford. Thank you again for your work.
    Mr. Chairman, I yield back.
    Mr. Russell. I thank the gentleman.
    The Chair now recognizes the gentleman from California, Mr. 
DeSaulnier, for 5 minutes.
    Mr. DeSaulnier. Thank you, Mr. Chairman.
    I have two subject areas. Hopefully I can get to both of 
them. One of them I don't have great expertise on. I will offer 
that to you, and I hope you can respond to it.
    So, in a 2017 GAO report on the DOE and how it deals with 
nuclear waste, there was a quote that said ``tens of billions 
of dollars by adapting alternative approaches to treat a 
portion of its low-activity radioactive waste.'' Most of this 
is done at two sites, Savannah and Washington. I would just 
like to know, without trying to go through the details and 
trying to express expertise in a technical matter that I am not 
familiar with, whether the DOE is responding to your 
suggestions to go with one type rather than the one that is 
more costly.
    Mr. Dodaro. Yes. Actually, congressional action will be 
needed to help them in that area. Congress has acted to allow 
the waste, the low-level nuclear waste at Savannah River, to be 
treated in a different manner. So they can actually use grout, 
which is cement, basically. At Hanford, everything is to be 
treated as high level, which means it needs to be vitrified, 
vitrification, turned into glass, basically, and then stored in 
that way. That is a process that hasn't been perfected. They 
are still working on that, and some of that will need to be 
done that way at Hanford.
    But there is this supplemental low-activity waste that they 
don't really have a strategy for yet, and we think they could 
use grout to do that. It could save a lot of money, tens of 
billions of dollars, and it could be done faster. Since 
Congress set the policy at Hanford, the technologies have 
improved. We convened an expert panel to help us in that area, 
so we think Congress should give DOE the flexibility to do 
that. It will treat that supplemental low-activity waste faster 
and cheaper.
    Mr. DeSaulnier. And DOE, in your discussions, is not 
arguing with your findings?
    Mr. Dodaro. Mark is our expert here.
    Mr. Gaffigan. They have not argued with that. In fact, I 
think they would like the flexibility to do that. There are 54 
million gallons of this waste at Hanford. None of it has been 
treated. They have spent almost $19 billion so far. Only 5 
million of that is high level, and to vitrify it all is not 
necessary according to the experts. We are not experts on all 
this stuff either, but we convened a National Academy panel, as 
Mr. Dodaro said, in May of 2016, and they agreed that some of 
that waste could be treated with the grouting.
    Mr. DeSaulnier. So literally, they are waiting for 
congressional ----
    Mr. Gaffigan. They want that, because they have a 
commitment to vitrify about a third, up to half of the total 
waste, but the other waste, the supplemental, they haven't made 
a decision yet on. They would like that option, the 
flexibility, to go either way.
    Mr. DeSaulnier. Okay. And on a totally separate subject, 
and I know there have been a lot of questions about DOD but I 
just wanted to get an understanding of where your role might be 
in the future. My interest was piqued when we had a hearing 
with the business advisory group and people who have dealt with 
DOD oversight on a financial level for a long time. They had 
McKenzie do a very basic oversight. They identified what they 
believed was $125 billion of waste. So given it is our biggest 
department, given concerns about procurement that you have 
talked about, the technical levels of really good investments 
but letting the public know the cost/benefit for these 
investments in a world that is changing, and the back of the 
office things that McKenzie identified, and on top of that then 
having the first full audit that the IG is looking at.
    So my concern is I know your roles are different, but to 
the degree that you all are responsible for identifying waste 
and more efficiency, how do we, hopefully, get more 
accountability into the DOD? How do you see your role being 
able to support the IG's efforts and the advisory board's 
efforts?
    Mr. Dodaro. Well, first of all, with regard to the 
financial audit, our responsibility is to audit the financial 
statements of the Federal Government. We have created a network 
across the government where the Inspector Generals have 
responsibility for doing the individual audits. We review their 
work. We agree on a methodology. We stay in contact with them. 
So we use their work to help us make our audit of the overall 
statements of the Federal Government.
    Some parts of the Federal Government we do ourselves. We do 
all revenue collection, all the debt, auditing all the debt, 
which unfortunately is the largest item on our balance sheet, 
but that is a separate hearing ----
    Mr. DeSaulnier. If I could interrupt, that is sort of what 
I am getting at. Since this is new, this full financial audit, 
you will have some responsibility for overseeing that so that 
is done on the appropriate timeline, and there was best 
practices asserted in that.
    Mr. Dodaro. Oh, yes. We have regular meetings with the 
independent auditors that have been hired for the services and 
with DOD IG. I have met with Glenn Fine, the Acting IG. We are 
very involved. We have a clear delineation of roles and 
responsibilities. But GAO definitely has a role to play and 
responsibilities in that area.
    On the other business systems in DOD, about one-third of 
our high-risk areas are DOD business practices--weapons systems 
acquisition, contract management, inventory management, supply 
chain operations, infrastructure. We are also reviewing their 
new management approaches. They have a new chief management 
officer now. That is something we have recommended for years 
that they put in place. I am meeting tomorrow with the new 
person who has been in that area. I have met with the Deputy 
Secretary of Defense. I have met with all three service 
secretaries. I have met with the comptroller over there. So we 
are very involved in trying to help them achieve some of those 
savings.
    On the Defense Business Board, I am an observer on that 
board, so I know what they are doing, and they use a lot of our 
work to do their studies.
    Mr. DeSaulnier. Thank you. I appreciate that.
    Mr. Dodaro. Sure.
    Mr. DeSaulnier. Thank you, Mr. Chairman. I yield back.
    Mr. Russell. The gentleman yields back.
    We appreciate the depth of expertise that all of our 
witnesses have.
    To drill down more on the Hanford versus Savannah River, in 
your report this is really the big-ticket item, tens of 
billions, $40 billion. Just kind of doing the math between 
facilities, it might be built, might not be built, processes 
that occurred, those are huge sums.
    So DOE, as I understand it, then, has no current authority 
bound by law. It would take congressional action for them to 
make a decision on vitrification versus grout. Is that correct?
    Mr. Gaffigan. Yes. They have an order where they have 
treated some waste at other sites through the grouting process. 
But back in 2002 they were challenged in court, and they sought 
clarification. So in 2004, the Congress clarified that, yes, 
they did have that authority for everywhere except Hanford.
    Mr. Russell. Why was it left out?
    Mr. Gaffigan. Because Hanford at that time was not 
convinced--the State of Washington, of course, is also a player 
here--was not convinced that the technology was as good. They 
had some concerns, for example, that DOE did grouting at Rocky 
Flats outside of Denver, Colorado in the early '90s, and it 
fell apart. In fact, when I first started my career almost 30 
years ago, I did some of that work. But they have gotten better 
at that, and some of the technologies have improved. So we 
think it is an option, and at Savannah they have grouted 4 
million gallons of the low-level waste successfully, as well as 
4 million of the high-level waste.
    Mr. Russell. And not had the legal challenges or ----
    Mr. Gaffigan. They had the authority clarified by Congress 
in 2004, and they have successfully done that.
    Mr. Russell. I see. So if the committee or others, if we 
were to take congressional action, then it would need to 
specifically name Hanford as being on the same par?
    Mr. Gaffigan. It would clarify that for them, yes.
    Mr. Russell. What legal hurdles do you think that would 
face?
    Mr. Dodaro. I don't think there would be legal or ----
    Mr. Russell. Because the other facilities are using this.
    Mr. Dodaro. Yes, right. You already have precedent at 
Savannah River. I think, of course, the congressional 
delegation from Washington needs to be involved in the process 
because there are other perception issues that need to be dealt 
with there. I think this evolved with good people making the 
best decisions at the time and the maturity of the technology 
at the time. But the maturity of the technologies involved now 
is a different issue, so I think Congress could take a 
different approach.
    One area we added to the high-risk list with the last 
update was environmental liabilities for the Federal 
Government. Reported estimates now to clean up nuclear waste in 
these other areas are approaching a half a trillion dollars. We 
are spending tens of billions of dollars every year to clean up 
this activity, but the liability keeps growing, as opposed to 
going down. So there needs to be risk-based, cost-effective 
strategies put in place, and that is why we suggested this 
particular issue at Hanford be revisited.
    Mr. Russell. And I think that is an excellent 
recommendation. In fact, if this committee were to do nothing 
else other than save $40 billion in the course of this term, we 
would be doing great service to the republic.
    With regard to other big-ticket items, $16.2 billion paid 
in fraudulent EIC payments, $1.7 billion paid in identity theft 
fraud. It is one thing to have duplication and fragmentation, 
but to pay thieves and just calling it improper payments is not 
only improper but it is an insult to every single taxpayer that 
is out there.
    Can you speak to any of your recommendations where delays 
of payments could help buy time to give proper identification 
and catch these frauds and prevent it? And then you have those 
who say, oh, no, no, no, no, you can't do that because we don't 
want to affect the economy and people want their refunds. Well, 
as an American taxpayer, I think anyone out there, would you 
accept a slight delay in your refund so that the thief next 
door is not taking somebody else's money? I think most 
Americans would be amenable to that. But can you speak to that 
for a moment?
    Mr. Dodaro. Oh, sure, I would be happy to. When identity 
theft first came on the scene, in addition to the Earned Income 
Tax Credit problem that they have with fraud and abuse--first 
of all, tax administration has been on our high-risk list since 
it was created back in the 1990s. So it has been a problem for 
a long time.
    Now, what we recommended to the Congress was that the IRS 
get W-2s from employers earlier in the process. They are 
processing tax returns in February and March largely, starting 
maybe even earlier than that, but they weren't getting the W-2s 
until April. So the crooks file early, okay?
    Mr. Russell. Sure, in January get a refund, be gone, and 
the actual person files.
    Mr. Dodaro. Yes. So Congress acted on our recommendation. 
They implemented it. The W-2s now come in earlier, except there 
are still a lot that come in in paper form that they can't 
process quickly enough. So we have recommendations to encourage 
Congress to mandate more electronic filing of W-2s from 
employers. Right now the threshold is set at 250 employees. We 
think it could be done at 10 in that area. IRS's own estimates 
are that they could save $300 million by delaying it a couple 
of weeks to do that.
    Now, I think we have suggested IRS do a cost/benefit 
analysis and share it with the Congress and see if we can get 
agreement. I think you could have a phased approach over time 
that allows them to delay the returns until more electronic 
information can come in, and then I think over time if you can 
get more electronic information in, they can get their systems 
up to date, they won't need the extra time in that approach. So 
that is kind of what we are looking at.
    Mr. Russell. And we really need to assist in these 
findings. Your previous recommendations have helped, but we 
see, as technology advances, there are a lot of crooks that 
leverage it, and the IRS is not the favorite agency of the 
American public, but we need to try to help them with the right 
tools and have the public respond, and Congress certainly needs 
to take the lead on that.
    I am out of time for my initial round of questions.
    I would like to recognize the gentle lady from New York, 
and then if we have time available we will go to a couple of 
additional questions.
    The gentle lady is recognized.
    Ms. Mahoney. Thank you so much.
    Welcome, and thank you so much for everything that GAO does 
for the people of America.
    I want to talk to you about the boat stations of the Coast 
Guard and your report on them. The Coast Guard's mandate is to 
prevent the loss of life, injury, and property damage in the 
maritime environment through its search and rescue efforts. It 
maintains over 200 stations with some combination of boats and 
helicopters along the U.S. coastline, and we are extremely 
grateful and appreciative of the hard work and sacrifice of 
these men and women in the Coast Guard.
    But this year's report highlights a 2017 GAO report on 
actions needed for the U.S. Coast Guard to close stations that 
are identified as overlapping and being a duplication. Are you 
familiar with this report?
    Mr. Dodaro. I am.
    Ms. Mahoney. And the GAO found in your report that the 
Coast Guard has a sound process for analyzing the boat 
stations, and following this process the Coast Guard and its 
contractor wrote, and I quote, that they ``identified 18 
unnecessarily duplicative boat stations with overlapping 
coverage that could be permanently closed without negatively 
affecting their ability to meet the two-hour response and 
search time.''
    Are you familiar with these findings?
    Mr. Dodaro. Yes, I am.
    Ms. Mahoney. And in 2017, GAO reported that the Coast 
Guard's leadership still believed that these findings were 
valid. Is that true?
    Mr. Dodaro. Yes.
    Ms. Mahoney. So closing the unnecessary duplication of 
stations could save up to $290 million, they say. That is a lot 
of money over 30 years.
    So, Mr. Dodaro, if that is true, then why are these 
duplicative stations still open?
    Mr. Dodaro. There has been some resistance from the local 
communities, and there has been some resistance in the Congress 
as a result of that, and that has prevented it from being 
closed so far.
    Now, the one thing I would want to point out, in addition 
to the savings, there is an important operational aspect that 
the Coast Guard points out, and that is the fact that because 
so many of these stations aren't as actively busy, people 
aren't getting the training necessary to stay up to speed. We 
raised this issue at the Navy about not adequately having time 
for training, and as a result, partly as a result of that, they 
had some accidents with their operations over time. They need 
to have proper training.
    So, to me, this is not only saving money but allowing the 
Coast Guard people, who we have great respect for as well, 
allow their people to get proper training. So I would encourage 
Congress to allow the closure of these stations.
    Ms. Mahoney. Well, I had one closed in my district. Of 
course, no one liked to see it closed. It was a popular service 
that was in the district I am privileged to represent, but we 
closed it because it was no longer needed. We haven't closed 
any of these since 1988.
    What are the obstacles that stop these things from being 
closed?
    Mr. Dodaro. I will ask George Scott, our expert in this 
area, to address that, Congresswoman.
    Mr. Scott. Thank you. As we reported last year, the Coast 
Guard has a sound, rigorous process for identifying which 
stations to close. Since 1973, they have made eight attempts to 
close a series of stations, and as the Comptroller General 
pointed out, in each instance either there has been opposition 
at the local level and/or congressional intervention which has 
prevented the Coast Guard from following through on making the 
closures.
    One of the points we make and that Gene made as well, it is 
not just about saving money but there are also operational 
impacts. For example, the Coast Guard spent over $2 million to 
repair a station a few years ago damaged by Hurricane Sandy 
that was on the closure list. So again, in addition to 
diverting resources from existing stations, we are actually 
spending money that we wouldn't have to spend if they were 
allowed to move forward with closing those stations.
    I actually sort of view this as a good news story. If 
Congress does nothing, no action is actually needed, then the 
Coast Guard can actually follow through with its plan to move 
forward with closing these stations. And we also made 
recommendations for the Coast Guard to, once they have a plan 
in place with the timeframes to close these stations, that they 
also turn their attention to some air stations where there is 
also some potential duplication and overlap in air stations. 
They are not quite as far along in their process yet, but I 
think allowing them to move forward with this first round of 
closures will really set the stage for them to follow through 
with potential analysis of closing duplicative air stations as 
well.
    Ms. Mahoney. This seems ridiculous that they have 
identified unnecessary facilities that are costing $260 
million. I remember when we had this problem with the military 
bases. We had a bipartisan effort where we did a bill that once 
the Commission came back and said that these bases had to be 
closed, Congress no longer had a role in it, it had to be 
closed, and maybe that is what we have to do here. Everybody is 
going to fight for services that are in their community. That 
is our job. So if they are trying to close something in a 
community, it is jobs, it is activity, it is economic activity 
in the area, it is going to be fought tooth and nail by members 
of Congress.
    So I respectfully request the Chairman to look at the base 
closing bill and see if maybe we need to do the same thing with 
the Coast Guard stations, because we are incapable of closing 
something that has been there for a number of years and that 
people like, even though it is not needed, is unnecessary, and 
is wasting taxpayer funds, especially when you say they are 
being repaired when they are not even being used. It is sort of 
ridiculous.
    Anyway, my time is up, and I thank you for yielding to me, 
and thank you very much. Good to see you again.
    Mr. Russell. The gentle lady yields back.
    The Chair now recognizes Mr. Palmer for some follow-up.
    Mr. Palmer. I will be brief.
    In the supplemental security income, you identify a 40 
percent increase in individuals under age 18. Is there any 
insight into the cause of this increase?
    Mr. Dodaro. I believe most of the increase, a big part of 
it, has been in children.
    Go ahead, Barb. The question was about the 40 percent 
increase in Social Security SSI population benefits and what is 
driving the increase.
    Mr. Palmer. The supplemental security income, you have a 40 
percent increase in the number of children, 14 to 17 I think, 
14 to 18. Any insight into why we had that increase? What are 
people claiming they are qualified for?
    Ms. Bovbjerg. Well, we are confirming that qualification. 
That is not just applications. That is how many people have 
come on the rolls. So there are more children with 
disabilities. We think that increasingly people are better able 
to recognize what may be happening with their child.
    Mr. Palmer. So it is better diagnostic techniques?
    Ms. Bovbjerg. Yes, and when they are in school, for 
example, there is the disability program in public schools 
where schools are required to pay attention and to identify 
children with disabilities. So I think there is a great 
sensitivity.
    Mr. Palmer. Okay. On the Earned Income Tax Credit, you 
talked about delaying the payment for a couple of weeks. Do you 
think that would help with reducing the improper payments, the 
$16 billion in improper payments on the Earned Income Tax 
Credit?
    Mr. Dodaro. I think it could because it could allow more 
time for the auditing to be done. They can increase the 
auditing for the Earned Income Tax Credit as well. What we are 
suggesting is you could delay them for everybody, all types of 
returns ----
    Mr. Palmer. Yes, you don't single anybody out.
    Mr. Dodaro. Right, right. But while you are doing that, you 
could audit more of the EITC returns and hopefully identify 
additional ones that should not be paid. So it could help with 
the improper payments in the EITC, as well as prevent identity 
theft.
    Mr. Palmer. And my last question is on Medicare Advantage. 
GAO made five recommendations, none of which have been 
implemented, including one priority recommendation. Do you have 
any communication between Medicare and GAO on that and any 
explanation for why they have not implemented these 
recommendations, particularly the one priority recommendation?
    Mr. Dodaro. Yes. I met with Seema Verma, who is the 
Administrator for the Centers for Medicare and Medicaid 
Services. I met with Secretary Price before he left, and I am 
going to meet with the new secretary as well. We are now 
meeting on a quarterly basis with them to go over all open 
recommendations in GAO.
    Ms. Nikki Clowers can give a more specific update.
    Mr. Palmer. Let me just ask this: If those recommendations 
were implemented, would it have any impact on reducing the 
improper payments, the $14 billion in improper payments?
    Ms. Clowers. It would certainly result in cost savings. We 
estimate billions of dollars each year if they would fully 
implement our recommendations on the Medicare Advantage 
payments, which is really the coding. They need better 
adjustments between what they pay in Medicare fee-for-service 
and making coding adjustments when they translate to the 
payments under Medicare Advantage. They have taken some steps 
in making those adjustments, but we think the adjustments are 
still too low. If they got better data, more updated data to 
help make those coding adjustments, they will make significant 
savings.
    Mr. Palmer. My last question on that is, is this an issue 
of antiquated data systems, or is it--I mean, I don't 
understand why, particularly when one is a priority, that they 
haven't acted on this. And again, considering the magnitude of 
savings that could be achieved.
    Mr. Dodaro. It just causes them to--there is no limitation 
on it. We did it. You just need to get updated information. It 
is just that they don't want to change the process that they 
have in place is my feeling, and we are trying to continue to 
persuade them that they need to change and that it will result 
in billions in savings.
    Mr. Palmer. I was afraid that that would be the answer.
    Mr. Chairman, I yield back. Thank you for indulging me 
another round of questions.
    Mr. Russell. I appreciate the questions.
    The gentleman yields back.
    I want to thank the witnesses and thank you, Mr. Dodaro, 
for your great work. And I also want to point out for the 
record that you lead by example. In a conversation that we had 
prior to this hearing, you had mentioned a figure of the money 
that you turned back to the government. And what was that 
figure?
    Mr. Dodaro. Last year, as a result of our work and 
Congress' actions on it and the executive branch, over $73 
billion in financial benefits occurred. That is $128 back for 
every $1 invested in GAO.
    Mr. Russell. This shows government the way it should 
function and the way it should work. I thoroughly believe if we 
doubled the size of our auditors and doubled the size of our 
Inspectors General, we could get at a lot of the country's 
problems right there. But, as has been pointed out in this 
hearing, we have a responsibility to act, or maybe in the case 
of the Coast Guard to not act if they have authority, right?
    But I think it does mention something that has also been 
raised in this hearing by the gentleman from Virginia, Mr. 
Connolly, that it is probably incumbent upon us to do more of a 
touch. What we see is the GAO and the Department of the IG, 
they reach out continually, but it is probably incumbent upon 
us to do more of a touch and a line of action, and you have 
certainly given us some crucial areas today where we could take 
some action in a bipartisan fashion to get at many of these 
problems.
    I am very grateful for all of the hard work that each of 
you do. A lot of times it is thankless work, and unadvertised, 
but it shows true public servants to our great country, so I am 
very, very grateful to each of you for the work that you do.
    The hearing record will remain open for two weeks for any 
member to submit a written opening statement or questions for 
the record.
    If there is no further business, without objection, the 
committee stands adjourned. Thank you.
    [Whereupon, at 11:53 a.m., the committee was adjourned.]

                                 <all>
</pre></body></html>
